NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

WENDELL TAYLOR
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 18-60425

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Wendell Taylor
requests leave to file the accompanying Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit without prepayment of costs
and to proceed in forma pauperis. Petitioner was represented by counsel appointed
under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the United States
District Court for the Southern District of Mississippi and on appeal to the United
States Court of Appeals for the Fifth Circuit.
1

